CASE NO.
In the Supreme Court of the United States
________________________
Juan Perez and Maria Posada,
Petitioners,
vs.
The City of Sweetwater,
Respondent.
____________________________
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEAL FOR
THE ELEVENTH CIRCUIT
PETITION FOR WRIT OF CERTIORARI
RICARDO CORONA, ESQ.
CORONA LAW FIRM, P.A.
3899 NW 7th Street
Second Floor
Miami, Florida 33126
Telephone: (305) 266-1150
RCORONA@CORONAPA.COM
ATTORNEY FOR PETITIONERS
JUAN PEREZ AND MARIA POSADA

i
QUESTIONS PRESENTED
I) Whether
the
Petitioner’s
Seventh
Amendment rights were violated when the
trial court weighed evidence and drew
inferences against Petitioner in setting
aside a verdict in his favor in
contravention of this Court’s decision in

Reeves v. Sanderson Plumbing Products,
Inc., 530 U.S. 133, 120 S.Ct. 2097, 147
L.Ed.2d 105 (2000).

II) Whether a municipality known to have a
“culture of corruption” and for having
“engaged in a protracted pattern of
racketeering activity,” including “multiple
acts of theft, fraud, burglary, torture and
other violent crimes against civilians,” can
be held liable under 42 U.S.C. §1983 for
injuries resulting from the conscience
shocking use of force by a police officer the
municipality failed to train on the proper
use of force?
III) Whether the Single Occurrence Rule
originating from City of Canton v. Harris,
489 U.S. 378, 109 S. Ct. 1197 (1989) is a
viable theory for holding a municipality
liable in finding sufficient evidence of a
custom of tacitly condoning police officers’
unjustified use of deadly force to establish
municipal liability under 42 U.S.C. §1983.

ii
PARTIES TO THE PROCEEDING
Petitioner, Juan Perez and Maria Posada, are
the Plaintiffs in the original action and Appellants
before the Eleventh Circuit Court of Appeals. The
Respondent is the City of Sweetwater, a
municipality in the state of Florida. Respondent
Sweetwater was a Defendant in the district court
proceedings and the Appellee before the Eleventh
Circuit Court of Appeals. The Petitioners sued three
officers in their official capacities in the original
complaint who either settled or were dismissed.
These defendants are not parties to the trial
proceedings which form the basis of this appeal and
have no interest in the outcome of this petition.
RELATED PROCEEDINGS
16-24267 Juan Perez and Maria Posada v. City of
Sweetwater, Rafael Duarte, Richard Brioso, and
Armando Gonzalez
District Court for the Southern District of Florida
17-13430 Juan Perez and Maria Posada v. Richard
Brioso and Armando Gonzalez
Eleventh Circuit Court of Appeals
Dismissed by the Court April 26, 2018
17-15551 Juan Perez v. City of Sweetwater
Eleventh Circuit Court of Appeals
Voluntarily Dismissed January 24, 2018
18-10498 Juan Perez and Maria Posada v. City of
Sweetwater

iii
Eleventh Circuit Court of Appeals
Order Affirming May 3, 2019
Order denying Motion for Rehearing July 12, 2019

iv
TABLE OF CONTENTS
Question Presented ..................................................... i
Parties to the Proceeding .......................................... ii
Related Proceedings ................................................. iii
Table of Contents ...................................................... iv
Table of Authorities ................................................... v
Opinions Below .......................................................... 1
Statement of Jurisdiction .......................................... 1
Constitutional and Statutory Provisions Involved ... 1
Statement of the Case and Facts............................... 3
Reasons for Granting Certiorari................................ 7
Conclusion ................................................................ 19
Appendix
Appendix A ............................................................ 1a
Judgment of the U.S. Court of Appeals for the
Eleventh Circuit entered on May 3, 2019
Appendix B .......................................................... 20a
Order of the U.S. District Court for the Southern
District of Florida entered on January 8, 2018
Appendix C .......................................................... 44a
Order Denying Petition for Rehearing/ Rehearing en
banc entered July 12, 2019

v
TABLE OF AUTHORITIES
Constitutional Provisions
U.S. Constitution, Amendment VII……………ii, 2, 12
United States Constitution, Amendment XIV, §1…..1
Statutes
28 U.S.C. § 1291 ......................................................... 1
28 U.S.C. § 1254 ......................................................... 1
28 U.S.C. § 1441 ......................................................... 3
42 U.S.C. § 1983 .............................................ii, 2, 3, 7
Rules
Fed R. Civ. P. Rule 50 ...................................... 1, 3, 14
Cases

Board of County Com’rs of Bryan County, Okl. v.
Brown, 117 S.Ct. 1382, 520 U.S. 397 (1997)...…..…..7
Bordanaro v. McLeon, 871 F.2d 1151 (1st Cir.
1989)……………………………………………………...10

Brown v. Bryan County, OK, 219 F.3d 450, 459 (5th

Cir. 2000)………………………………………………….7
City of Canton v. Harris, 489 U.S. 378, 109 S. Ct.
1197 1989)…………………………………………… ..6,7
City of Oklahoma City v. Tuttle, 471 U.S. 808, 821,
105 S.Ct. 2427 1985)…………………………………….8
Connick v. Thompson, 563 U.S. 51, 64-65, S.Ct.
1350, 179 L.Ed.2d 417 (2011)……………………6, 7, 8
Depew v. City of St. Marys, 787 F.2d 1496, 1499
(11th Cir.1986)……………………………………………9

vi

Grandstaff v. City of Borger, Tex., 767 F.2d 161 (5th
Cir. 1985)………………………………………………..11
Larez v. City of Los Angeles, 946 F.2d 630 (9th Cir.
1991)……………………………………………………..10

Monell v. New York City Department of Social
Services, 436 U.S. 658, 98 S.Ct. 2018 1978)…….8, 12
Newton v. City of New York, 79 F.3d 140, 153 (2d

Cir. 2015)………………………………………………...10
Reeves v. Sanderson Plumbing Products, Inc., 530
U.S. 133, 120 S.Ct. 2097, 147 L.Ed.2d 105
(2000)……………………………………………..ii, 13, 14
Rogers v. Mo. Pacific R.R. Co., 352 U.S. 500, 509, 77
S.Ct. 443, 1 L.Ed.2d 493 (1957)………………………12
Sorlucco v. New York City Police Dept., 971 F.2d
864, 872 (2d Cir. 1992)………………………………...10

Woodward v. Correctional Medical Services of
Illinois, 368 F.3d 917 (7th Cir. 2004)……………..…11

1
OPINIONS BELOW
The district court’s unpublished order
granting the respondent’s motion for judgment as a
matter of law is reproduced in Appendix B. The
Eleventh Circuit’s opinion, affirming the district
court’s final judgment in respondents’ favor, is
reproduced in Appendix A. The Eleventh Circuit’s
denial of Petitioner’s Motion for Rehearing is
reproduced in Appendix C.
STATEMENT OF JURISDICTION
Petitioners seek review of the opinion of the
Eleventh Circuit Court of Appeals and its judgment
on May 3, 2019 and its denial of Petitioners Motion
for Rehearing and/or en banc review on July 12,
2019. The Eleventh Circuit had jurisdiction under
28 U.S.C. § 1291. This Court has jurisdiction under
28 U.S.C. § 1254(1).
CONSTITUTIONAL
AND
PROVISIONS INVOLVED

STATUTORY

United States Constitution, Amendment XIV, § 1:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without due

2
process of law; nor deny to any person within
its jurisdiction the equal protection of the
laws.

42 U.S.C. § 1983:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in
equity, or other proper proceeding for redress.
For the purposes of this section, any Act of
Congress applicable exclusively to the District
of Columbia shall be considered to be a statute
of the District of Columbia.

United States Constitution, Amendment VII
In Suits at common law, where the value in
controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and
no fact tried by a jury, shall be otherwise reexamined in any Court of the United States,
than according to the rules of the common
law.

3
STATEMENT OF THE CASE AND FACTS
On January 2, 2012, while on his way to work,
Juan Perez was seriously injured as a result of the
City of Sweetwater police officers’ unwarranted stop,
shooting, and vehicular chase of a traffic offender.
After its initial filing in state court, this case was
removed to the United States District Court
pursuant to 28 U.S.C. § 1441. One claim for a
violation of 42 U.S.C. §1983 was tried before a jury
who unanimously found the City of Sweetwater
liable to Petitioner. Subsequently, the District Court
entered an order granting the Respondent, City of
Sweetwater’s, motion for judgment as a matter of
law under Fed. Rule Civ. P. 50 (b), thereby voiding
the jury’s verdict. (Appendix B). The Eleventh
Circuit Court of Appeals affirmed the District Court.
(Appendix A).
The case arises from the traffic stop of a black
Mercedes-Benz driven by Felipe Torrealba, a young
man of Hispanic descent, by off-duty Sweetwater
Police Officer Richard Brioso outside of his
geographical jurisdiction. Shortly after the stop was
initiated, Sweetwater Police Officers Domingo
Benito, Rafael Duarte and Armando Gonzalez
arrived on the scene to “investigate.” Torrealba and
the vehicle’s passenger, Dondrey St. Phar a young,
black Haitian male, were asked to exit the car and
questioned regarding their ability to drive a
“$100,000 car.” The officers thoroughly searched the
vehicle and Torrealba for weapons and found none.
After nearly twenty minutes of this extrajurisdictional investigation and aggressive behavior
towards Torrealba, Torrealba panicked and

4
attempted to flee. Upon Torrealba running back into
his vehicle, Armando Gonzalez, a part-time officer on
the force for about one week, drew his weapon and
began firing at him. Brioso also discharged his
firearm towards Torrealba and the fleeing vehicle.
Gonzalez claims Torrealba brandished a firearm.
Torrealba and his passenger, St. Phar, assert they
never had a firearm on that date. No firearm was
ever found. Brioso and Gonzalez fired at Torrealba’s
vehicle as he was driving away on Eighth Street, a
heavily trafficked thoroughfare. They discharged a
total of 24 bullets into the roadway while Officer
Benito simultaneously engaged in a chase of
Torrealba on Eighth Street where other cars were
also driving.
Torrealba was struck in the ear by one of the
bullets and, as a result, he crashed into Juan Perez’s
pickup truck permanently injuring him. Predictably,
the gunfire also wounded another driver unrelated to
the stop, Hermodio Coca, who was two blocks away
driving to work himself.
Armando Gonzalez, the rookie officer first to
discharge his firearm had been a part time police
officer with the city of Sweetwater for roughly a
week when this incident occurred. He was driving a
Sweetwater police cruiser on his own. Gonzalez was
never give a copy of the standard operating
procedures nor were the City’s policies ever reviewed
with him. Brioso and Gonzalez failed to follow
Sweetwater guidelines regarding the proper use of
force and violated their written policy regarding
shooting at moving vehicles. Neither shooting officer
followed the policy requiring them to make a verbal
and then written report documenting the

5
circumstances of the shooting. Gonzalez claimed to
be unaware of such policy and insisted at trial he
should not be required to do that. The City of
Sweetwater never required the officers to comply
with any of these policies.
In addition to the City’s failure to train
Armando Gonzalez, the department was otherwise
chaotic at the time.
Evidence was presented
regarding a “culture of corruption” throughout the
City of Sweetwater police department, in which
members of the department “while operating under
color of law, engaged in a protracted pattern of
racketeering activity that included, but is not limited
to, multiple acts of theft, fraud, burglary, torture and
other violent crimes against civilians.” Two specific
incidents were presented where Sweetwater officers
used excessive force against citizens who were being
investigated for minimal crimes.
Further evidence was presented regarding the
lack of any order in the department during the
relevant period.
There was no system of
recordkeeping at all and the detectives were
essentially “running amuck.” It was established that
officers were unrestricted when it came to making
stops outside their jurisdiction. The officers were
often illegally towing cars without authority to do so
often targeting unsophisticated individuals who had
committed petty offenses. The police department
itself was chaotic and police lacked supervision. The
police chief and the higher ups in the police
department were aware of the unlawful actions of
their officers.
Despite a jury’s findings that the injuries
sustained by Juan Perez were a result of the City of

6
Sweetwater’s custom or policy approving of the
conscious shocking use of deadly force and that the
City of Sweetwater exhibited deliberate indifference
to a known need for additional training and/or
supervision, the District Court and Appellate Court
held that the evidence presented was insufficient to
support their verdict.
The District Court and
Appellate Court further disregarded factual findings
by the jury that the officers were not in danger when
the decision to use deadly force was made and
reversed the verdict based on their own
interpretation of the facts.
A clear answer is necessary to determine
uniform parameters for municipal liability. Further,
this Court should exercise its unique ability to
correct appellate tribunals when they substitute
their own judgments for those of the jurors to the
detriment of our constitutional system.

7
REASONS FOR GRANTING CERTIORARI
1.
It is necessary to resolve the conflict regarding
the application of the Single Occurrence Rule and
whether the inadequate training of a single officer
on the proper use of deadly force subjects a
municipality to liability when that officer uses
deadly force on a fleeing traffic offender.
This case provides the Court with an
opportunity to resolve the conflict between the
circuits about the “single occurrence” rule of City of
Canton v. Harris, 489 U.S. 378, 109 S. Ct. 1197
(1989). The narrow interpretation of the “singleincident” rule applied by the Eleventh Circuit in this
case permits municipalities to send armed,
untrained officers into the street and remain free
from liability for the actions of that officer.
In a footnote in Canton, this court established
that there were certain situations where the need for
more or different training is so obvious, and the
inadequacy so likely to result in the violation of
constitutional rights, that the city can be liable for
injuries sustained as a result of the city’s failure to
train without a prior pattern of unconstitutional
behavior. Id. at 390-91. This court used the specific
example found here regarding failure to train
officers on the use of force and firearms when
arresting fleeing felons. However, since Canton was
decided, this court has never fleshed out that avenue
of liability.
In Connick v. Thompson, this Court reiterated
the single incident liability established by Canton
and again theorized that the hypothetical decision by

8
a municipality not to train the officers about
constitutional limits on the use of deadly force could
reflect the city's deliberate indifference to the “highly
predictable
consequence”
of
violations
of
constitutional rights. 563 U.S. 51, 64-65, 131 S.Ct.
1350, 179 L.Ed.2d 417 (2011). Connick involved a
municipality’s failure to train its prosecutors on
Brady evidence. This court found that the need to
train highly educated prosecutors on their
obligations was not so obvious that the district
attorney could be said to have been “deliberately
indifferent” to need for such training, and his office
was not liable under § 1983 when a defendant was
wrongfully convicted as a result. Id. at 65-66.
Following this logic, the Fifth Circuit in
Brown v. Bryan County, OK, held that “under
certain circumstances § 1983 liability can attach for
a single decision not to train an individual officer
even where there has been no pattern of previous
constitutional violations.” 219 F.3d 450, 459 (5th Cir.
2000). The same facts giving rise to the Fifth
Circuits decision were heard by this court. Board of
County Com’rs of Bryan County, Okl. v. Brown, 117
S.Ct. 1382, 520 U.S. 397 (1997). In rendering its
opinion that the County could not be liable for a
single hiring decision, this court left open the
possibility that the decision not to train an officer on
the proper use of deadly force could constitute
deliberate indifference sufficient to support
municipal liability. Id. at 1385. On remand, the court
of appeals upheld the verdict on the single decision
not to train the officer. This court denied certiorari
on that case and has yet to clarify whether a
municipality’s failure to train a single officer

9
subjects them to liability. Board of County Com’rs of
Bryan County v. Brown, 121 S.Ct. 1734, 532 U.S.
1007 (2001).
The Fifth Circuit’s decision was grounded, not
on whether the county had a policy of failing to train
all its deputies, but rather on the failure to provide
training and supervision to the reserve deputy in
particular. This is precisely the argument made by
Petitioner and rejected by the Eleventh Circuit. A
resolution regarding the proper interpretation of
Canton will make clear the parameters of liability
with regards to training every armed officer
employed by a municipality and resolve the clear
conflict between circuits. A final determination will
affect the safety and liberty of all the citizens of the
United States.

10
2. This Court must set forth tangible guidelines for
establishing a custom or policy sufficient to create
municipality liability under 42 U. S. C. § 1983 to
ensure consistent results.
In Monell v. New York City Department of
Social Services, this Court held that a municipality

can be held liable for violations of 42 U.S.C. § 1983 if
the civil rights violation resulted from a “policy or
custom” of the government. 436 U.S. 658, 98 S.Ct.
2018 (1978). This “policy or custom” requirement
was intended to prevent the imposition of municipal
liability under circumstances where no wrong could
be ascribed to municipal decisionmakers. City of
Oklahoma City v. Tuttle, 471 U.S. 808, 821, 105
S.Ct. 2427 (1985).
This Court, however, has not defined what
level of proof is necessary to establish an unofficial
custom “so persistent and widespread as to
practically have the force of law.” Connick at 131.
The Petitioner’s theory is that the municipality
sanctioned the unconstitutional conduct of their
officers by failing to correct unconstitutional
behavior. In this case, the city of Sweetwater failed
to correct a widespread belief that civil rights
violations will be tolerated, and in keeping with the
custom, the officers were violating civil rights and
causing injuries to citizens. The municipality’s
inaction can be said then to cause the injury.
The evidence in this case showed that there
was general disorder and a culture of corruption in
the city’s police department as a result of the
enforcement of a questionable towing ordinance that
resulted in millions of dollars a year to the city. The

11
officers were encouraged to do whatever possible in
order to effectuate the towing of vehicles within the
city and there was evidence that city of Sweetwater
officers were violating citizens’ rights as a result.
The evidence supported the theory that the initial
stop and investigation of Torrealba was motivated by
the officer’s desire to tow his valuable vehicle. The
jury found that evidence of the officer’s conduct on
the date in question plus the evidence of the city’s
failure to correct previous unconstitutional behavior
established a custom attributable to the city.
Although the Eleventh Circuit has held that
the continued failure of the city to prevent known
constitutional violations by its police force is
precisely the type of informal policy or custom that is
actionable under section 1983, they failed to rule
consistent with their holding in Depew v. City of St.
Marys, 787 F.2d 1496, 1499 (11th Cir.1986). In the
case at bar, the appellate court found that the
previous incidents that showed the police force
violating citizen’s constitutional rights and using
extreme force against them were not sufficiently
similar to the circumstances surrounding the use of
unnecessary force in this case to establish a pattern.
The appellate court held that the Petitioner had not
presented “evidence of prior similar incidents
involving police officers confronted with a suspect
they believed was armed, who disregarded their
orders, pointed a gun at an officer, and fled at high
speed.” (Appendix B).
The problem with this statement is two-fold.
First, the court’s characterization of the evidence
disregarded contradictory evidence that there was
never a threat to the police and a jury’s finding that

12
Torrealba did not pose a threat of physical harm to
the police. Second, applying this framework, it is
extremely unlikely that victims of police violence in
the Eleventh Circuit can ever succeed on civil rights
claims against a municipality unless they find a
series of previous incidents with the exact same fact
pattern, a feat nearly impossible to attain.
Other circuits recognize the difficulty in
proving a custom and permit the factfinder to infer
municipal custom in excessive force cases without
proof of numerous prior incidents virtually identical
in nature. They use something resembling a totalityof-the-circumstances test, incorporating direct
testimony and circumstantial evidence bearing on
the frequency, duration, and seriousness of the
unconstitutional conduct. See, e.g., Newton v. City of
New York, 79 F.3d 140, 153 (2d Cir. 2015)
(numerous deficiencies of evidence management
system justified claim based on custom of inadequate
recordkeeping); Sorlucco v. New York City Police
Dept., 971 F.2d 864, 872 (2d Cir. 1992) (small but
unanimous statistical sample, combined with
plaintiff's and expert's testimony, supported
inference of general discriminatory practice);
This theory of liability is supported by the
First Circuit’s holding in Bordanaro v. McLeon, 871
F.2d 1151 (1st Cir. 1989). In Bordonaro, the court
upheld a verdict of municipal liability on a showing
that the police chief’s constructive knowledge of the
unconstitutional arrest practices of its officers. Id. at
1157. The court found that the jury could conclude
that there was “supervisory encouragement,
condonation and even acquiescence” in the
unconstitutional practice.
Id. In reaching its

13
conclusion, the First Circuit used an interrelation of
testimony about prior instances, egregiousness of
conduct, and deficiencies of personnel policies
sufficient to show custom and causation. Id. at 1156,
1159-62.
In Larez v. City of Los Angeles, the Ninth
Circuit's found that the police department
perpetuated “a departmental policy or custom of
resorting to the use of excessive force.” 946 F.2d 630
(9th Cir. 1991). That court found evidence of a
custom of excessive force when the police
department failed to acknowledge a complaint,
discipline officers or take any remedial measures in
response to complaints. Id. at 636, 647.
Similarly, the Seventh Circuit in Woodward v.
Correctional Medical Services of Illinois, 368 F.3d
917 (7th Cir. 2004), affirmed the jury's § 1983 verdict
against Correctional Medical Services [“CMS”], a
private contractor being treated as a municipality,
for its staff’s violations of written policies and
procedures such that CMS “tolerated if not
encouraged the custom or practice that encompassed
deliberate indifference to the substantial danger
posed” to suicidal inmates. 368 F.3d 920. Deliberate
indifference was demonstrated by CMS's condoning
of its employees actions, not its own written policies.
Id. The Eleventh Circuit, however, disregards such
evidence, as it did here. As a result, municipalities in
other circuits may be held accountable when they
turn a blind eye to police misconduct, while those in
the Eleventh are virtually immunized from federal
civil rights liability in the same circumstances.
The Fifth Circuit in Grandstaff v. City of
Borger, Tex., held that a victim of excessive force

14
should not be required in every case to establish the
recurrence of the same type of injury. 767 F.2d 161
(5th Cir. 1985). That court found that where police
officers know at the time they act that their use of
deadly force in conscious disregard of the rights and
safety of innocent third parties will meet with the
approval of city policymakers, the affirmative
link/moving force requirement is satisfied. Id. at 170.
This court’s failure to articulate identifiable
standards for custom cases has led to inconsistent
evidentiary standards and outcomes. The type,
quantity, and specificity of the evidence required to
show custom and causation vary significantly within
and between circuits. Some courts permit an
inference of unconstitutional custom to be drawn
from the allegedly tortious incident itself. Others do
not. The courts are inconsistent in what constitutes
a prior similar instance in order to satisfy the
requirement that the municipality be on notice of
such conduct. Inconsistency breeds an appearance of
unfairness. The Eleventh Circuit's approach creates
a virtually unattainable evidentiary standard that
must be met to create municipal liability and has
narrowed the custom and policy requirement of
Monell. The national importance of having the
Supreme Court decide the questions involved is to
ensure that governmental entities are uniformly
held accountable for the actions, inactions and
decisions of their policymakers that lead to injuries
or death of citizens.

15
3.
This Court must provide guidance to the lower
courts regarding the limits of their Constitutional
power when reviewing jury verdicts.
A jury’s role as a fact finder is constitutionally
mandated. United States Constitution, Amendment
VII. Deference to the factual finding of a jury is a
bedrock of our judicial system. The Reexamination
Clause is an express limitation on the nature of
appellate review and, as such, is the only provision
in the Constitution that directly limits the power of
appellate courts. Only this Court is in a position to
review whether the Reexamination Clause has been
violated. This Court has historically been protective
of the role of the jury and expressed its willingness
to exercise its power of review in any case where it
appears that the litigants have been improperly
deprived of their right to a jury determination.
Rogers v. Mo. Pacific R.R. Co., 352 U.S. 500, 509, 77
S.Ct. 443, 1 L.Ed.2d 493 (1957). In this case, the
district court and subsequently the appellate panel
assumed the role of a second jury, making credibility
determinations and rejecting reasonable inferences
that had been drawn by the jury. Given the lower
court’s encroachment on the jury’s role, it is
appropriate and necessary for this Court to step in
and correct this deprivation of the Petitioners’
rights.
When a court is asked to review a verdict,
they are not free to reweigh evidence and set aside a
verdict merely because the jury could have drawn
different inferences or conclusions or because judges
feel that other results are more reasonable. In this

16
case, alternative theories were presented at trial
which enabled the jury to find that the force used by
the officers was either pursuant to a custom of the
city of Sweetwater or deliberate indifference to a
known need for more training and/or supervision.
The jury found the city liable under both theories
based on the evidence presented and detailed
interrogatories. The district court reversed the
jury’s decision and the Eleventh Circuit inexplicably
affirmed this decision. Since there was evidence in
the record to support the verdict under the
traditional tests for sufficiency applied in this Court,
the panel’s decision is erroneous and it should be
reversed.
In Reeves v. Sanderson Plumbing Prods., Inc.,
this Court addressed the role of the district court in
ruling on a judgment notwithstanding the verdict.
530 U.S. 133, 120 S.Ct. 2097, 147 L.Ed.2d 105
(2000).
This court unanimously reiterated the
standard that the appellate courts must follow to
ensure they are not reexamining the finding of the
jury and held that the lower court must draw all
reasonable inferences in favor of nonmoving party,
and it may not make credibility determinations or
weigh the evidence. Id. at 150.
The jury in this case found a custom
attributable to the city as a result of its tow
ordinance and its enforcement.
They further
believed that the motivation for the original stop was
the tow ordinance based on the evidence presented.
The district court and the appellate court held that
there was no evidence that the towing ordinance
played any role in the stop and investigation of
Felipe Torrealba and, therefore, found there was no

17
causal link between the custom of the city presented
and the injury. (BC). This statement required the
lower courts to weigh the evidence before them and
reach a conclusion, a job reserved only for the jury.
Furthermore, the district court and appellate
court both held that the officer would have been
justified in using deadly force upon “an armed
suspect …who pointed a gun at an officer.”
(Appendix B). This statement is the basis for the
lower courts’ reversal and is evidence that was
contradicted and clearly disregarded by the jurors.
To reach this conclusion, the district court and then
the
appellate
panel
made
the
credibility
determination to believe Armando Gonzalez, the
first shooting officer’s, version of the incident, a
version that was heard and rejected by the jury. The
jury’s finding that the traffic offender did not pose an
immediate threat of physical harm to the city’s
officers was a fact that was the basis for liability.
Using the jury’s reasonable logic, an unarmed traffic
offender who posed no harm to officers was shot at
24 times in an attempt to flee the traffic stop. The
actions of the officers were directly related to the
city’s failure to train the shooting officer on even its
most basic policies.
This case is an opportunity for this court to
determine whether the lower courts should be
corrected for disregarding this court’s clear
precedent. The lower courts’ misapplication of the
standard of review dictated by Rule 50 and Reeves,
and granting a judgment as a matter of law is
improper, where, as in this case, the court
impermissibly substitutes its judgment concerning
the evidence for that of the jury. Id. at 152. This

18
Court should grant certiorari here to ensure that
lower courts do not substitute their own judgment
for those of jurors and deprive litigants of their
constitutional rights. Absent regular scrutiny by this
Court, the constitutional right to a jury trial is a
fallacy. The petition for certiorari should therefore
be granted to curb the abuse of power by appellate
courts.

19
CONCLUSION
For the foregoing reasons, it is respectfully
submitted that the petition for writ of certiorari
should be granted.
Respectfully submitted,
RICARDO CORONA, ESQ.
CORONA LAW FIRM, P.A.
3899 NW 7th Street
Second Floor
Miami, Florida 33126
Telephone: (305) 266-1150
rcorona@coronapa.com
ATTORNEY FOR PETITIONERS
JUAN PEREZ AND MARIA POSADA

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-10498
________________________
D.C. Docket No. 1:16-cv-24267-CMA
JUAN L. PEREZ,
MARIA A. POSADA,
Plaintiffs-Appellants,
versus
CITY OF SWEETWATER,
RAFAEL DUARTE, et al.,
Defendants-Appellees.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(May 3, 2019)
Before WILLIAM PRYOR and NEWSOM, Circuit
Judges, and ROSENTHAL,*
Chief District Judge.
PER CURIAM:
Careful district judges anxious to protect the
trial record and avoid retrial maysubmit cases to the
jury, even when the judge doubts that the evidence
________________________
*Honorable Lee H. Rosenthal, Chief United States District
Judge for the Southern Districtof Texas, sitting by designation.

2a
is sufficient to support the liability finding and
damages the plaintiff seeks. If the jury returns a
defense verdict, the judge usually needs only to enter
judgment. But when, as here, the jury finds liability
and imposes a large damages award, the district
judge must decide whether to displace the verdict by
granting judgment as a matter of law. The district
judge took that step here, and the plaintiff appealed,
requiring us to decide if the jury had any reasonable
basis to return the verdict it did. We agree with the
district court that this record did not present
sufficient evidence to support the verdict, and we
affirm.
I. Background
A jury found that the City of Sweetwater,
Florida was liable under 42 U.S.C. § 1983 for
injuries that Juan L. Perez suffered when a car
fleeing police pursuit hit Perez’s vehicle at a high
speed. The jury awarded Perez $1,000,000 in
compensatory damages. After trial, the City renewed
its motion for judgment as a matter of law, which the
district court granted, finding that no reasonable
jury could have found the City liable under § 1983
based on the trial evidence. Perez appeals the
district court’s decision during trial to exclude
certain evidence and its decision after trial to grant
judgment for the City as a matter of law.
Early the morning of January 2, 2012, Juan
Perez left his home in Miami, Florida to drive to
work. As he was driving east on 8th Street, he
noticed four police cars stopped behind “one dark
car.” Officer Richard Brioso, a City police officer, had
stopped the “dark car,” a Mercedes Benz, for reckless

3a
driving. Officer Brioso testified at trial that the
Mercedes had been traveling at a high speed and
appeared to be racing another car. At trial, the
driver testified that he was not racing another car,
but he did not recall how fast he was driving. The
passenger had been asleep and could not dispute
Officer Brioso’s testimony.
Three nearby City police officers—Officers
Rafael Duarte, Armando Gonzalez, and Domingo
Benito—responded to Officer Brioso’s dispatch report
of the stop. The Mercedes driver, Felipe A.
Torrealba, gave the officers a Texas identification
card, telling them that he did not have a Florida
driver’s license. The officers did a routine run of
Torrealba’s name through identification databases
and found a Florida driver’s license with a picture
matching Torrealba’s appearance. The picture
showed a large tattoo on Torrealba’s neck. When the
officers asked Torrealba about his tattoo, Torrealba
ran toward the Mercedes’s driver-side door. The
police officers ordered him to stop, but he kept going.
The officers gave chase. Officer Duarte was closest to
Torrealba, but Torrealba got to the Mercedes first.
The officers testified at trial that at that point, they
saw Torrealba reach into his waistband, pull out a
handgun, and aim it at Officer Duarte. Officer
Duarte yelled “Oh, shit[,] gun,” and leaned “back
towards the driver[‘s] rear door” for cover, holding
onto the “middle pillar of the vehicle.” The Mercedes
started moving, dragging Officer Duarte. Officers
Gonzalez and Brioso fired 23 rounds at Torrealba,
but he raced away. Officer Benito testified that he
got into his patrol car to give chase but “had no
chance” because the Mercedes was already “two

4a
blocks ahead.” At trial, Torrealba testified that he
did not have a gun on that day, disputing the
officers’ testimony.
Perez was still driving on 8th Street. He
looked into his rearview mirror and saw “light
coming like a lightning.” He could do nothing more
than “say, [s]orry, Maria,” before the Mercedes hit
his truck at high speed. Perez recalled nothing after
seeing the light and feeling the impact. He regained
consciousness upside down in his crumpled truck,
smelling leaking gasoline. The Fire Rescue Squad
had to free him from the truck. Perez was
hospitalized for 14 days.
Officer Benito was the first to arrive at the
collision scene. He saw the truck but did not check
on the occupants, because his “main concern was
[that Torrealba was] armed with a handgun and” on
the loose. The Mercedes had crashed into a palm tree
“30, 40 yards away” from Perez’s truck. A bystander
told Officer Benito that a man had jumped out of the
Mercedes and into a nearby canal. Officer Benito
radioed dispatch to set up a perimeter blockade in
the area.
The City police officers did not find Torrealba
on January 2, 2012, and they did not find a firearm
or evidence that Torrealba had fired a gun from the
Mercedes, the canal, or the crash area. Torrealba
was finally arrested in February 2013. Torrealba
pleaded guilty to resisting arrest with violence and
to resisting arrest without violence for his actions on
January 2, 2012. He received a three-year sentence.
Perez and his wife, Maria A. Posada,1sued the
City and Officers Duarte, Brioso, and Gonzalez in
1

Perez and Posada are referred to collectively as Perez.

5a
state court, asserting claims under 42 U.S.C. § 1983
and for negligence. Perez alleged that his injuries
were caused by the officers’ unconstitutional use of
deadly force. He alleged that the City’s custom
relating to conducting vehicle stops to enforce a
towing ordinance to obtain money or property for the
City, and the City’s custom relating to, and training
in, using deadly force and engaging in high-speed
chases, violated his Fourteenth Amendment
substantive due-process rights. The City and the
officers removed. The district court dismissed the
claims against Officer Duarte, with prejudice, and
denied Officers Brioso’s and Gonzalez’s motions for
summary judgment. Officers Brioso and Gonzalez
filed an interlocutory appeal, and Perez’s claims
against them were not tried with his claims against
the City.
Perez voluntarily dismissed his negligence
claim against the City during trial. The City moved
for judgment as a matter of law on the § 1983 claims
after Perez rested his case-in-chief, and renewed the
motion at the close of the evidence. Perez asserted
two bases for liability against the City: (1) that the
City had an unconstitutional policy or custom
relating to the police use of deadly force or
conducting high-speed pursuits, causing a violation
of Perez’s Fourteenth Amendment due-process
rights; and (2) that the City was deliberately
indifferent to the need for different or more officer
training or supervision as to deadly force or highspeed pursuits. The district court instructed the jury
on the elements under each theory. The jury found
that the City was deliberately indifferent to an
unconstitutional policy or custom as to using deadly
force, but not as to conducting

6a
high-speed pursuits, and was deliberately indifferent
to the need for officer training on both using deadly
force and conducting high-speed pursuits. The jury
awarded Perez $1,000,000 in compensatory
damages, and the court entered final judgment in
that amount. The City filed a timely renewed motion
for judgment as a matter of law. See FED. R. CIV. P.
50(b). The court granted the City’s motion, finding
that the evidence did not allow a reasonable jury to
conclude that the City had a policy or custom of
“conscience-shocking use of lethal force” or that the
officers’ training was deficient as to lethal force or
the conducting of high-speed pursuits following
traffic stops. The district court vacated the final
judgment based on the verdict and entered final
judgment for the City.
In this appeal, Perez challenges the district
court’s decision to exclude from the trial evidence
parts of affidavits submitted in 2017 by two MiamiDade detectives to get arrest warrants against two
former City police officers for misconduct they
allegedly committed on duty. Perez also challenges
the district court’s decision to grant judgment as a
matter of law, contending that there was enough
trial evidence for a reasonable jury to find that the
City police department had a custom of using
unlawful means to enforce a towing ordinance, in
order to collect the fines and personal property from
the vehicles, and that this custom was the moving
force behind the constitutional violation and Perez’s
injuries. Perez also argues that there was enough
evidence for a reasonable jury to find that the City
was deliberately indifferent to the need for different
or additional officer training on using deadly force
and engaging in high-speed vehicle pursuits.

7a
Although Perez’s innocent-bystander status evokes
sympathy, the evidence simply does not support the
jury’s verdict.
II. The Standards of Review
A. Evidentiary Rulings
“The evidentiary rulings of the district court
are reviewed for a clear abuse of discretion.” Aycock
v. R.J. Reynolds Tobacco Co., 769 F.3d 1063, 1068
(11th Cir. 2014). “[T]he deference that is the
hallmark of abuse-of-discretion review requires that
we not reverse an evidentiary ruling of a district
court unless the ruling is manifestly erroneous.”
United States v. Barton, 909 F.3d 1323, 1330 (11th
Cir. 2018) (quoting United States v. Frazier, 387
F.3d 1244, 1259 (11th Cir. 2004)). “A district court
abuses its discretion ‘if it applies an incorrect legal
standard, applies the law in an unreasonable or
incorrect manner, follows improper procedures in
making a determination, or makes findings of fact
that are clearly erroneous.’” Aycock, 769 F.3d at
1068 (quoting Brown v. Ala. Dep’t of Transp., 597
F.3d 1160, 1173 (11th Cir. 2010)).
B. Judgment as a Matter of Law
When “a party has been fully heard on an
issue during a jury trial and the court finds that a
reasonable jury would not have a legally sufficient
evidentiary basis to find for the party on that issue,”
the court may either “resolve the issue against the
party” or “grant a motion for judgment as a matter of
law against the party on a claim or defense that,

8a
under the controlling law, can be maintained or
defeated only with a favorable finding on that issue.”
FED. R. CIV. P. 50(a)(1). “Judgment as a matter of
law for a defendant is appropriate[] ‘when there is
insufficient evidence to prove an element of the
claim, which means that no jury reasonably could
have reached a verdict for the plaintiff on that
claim.’” Cadle v. GEICO Gen. Ins. Co., 838 F.3d
1113, 1121 (11th Cir. 2016) (quoting Collado v.
United Parcel Serv., Co., 419 F.3d 1143, 1149 (11th
Cir. 2005)). A district court may grant judgment as a
matter of law only “where reasonable jurors could
not arrive at a contrary verdict.” Munoz v. Oceanside
Resorts, Inc., 223 F.3d 1340, 1344–45 (11th Cir.
2000) (alteration and quotation omitted). “In
considering a Rule 50(b) motion after the jury
verdict, ‘only
the sufficiency of the evidence matters. The jury’s
findings are irrelevant.’” Cadle, 838 F.3d at 1121
(quoting Connelly v. Metro Atlanta Rapid Transit
Auth., 764 F.3d 1358, 1363 (11th Cir. 2014)).
An appellate court reviews a “district court’s
ruling on a motion for judgment as a matter of law
de novo, considering the evidence and the reasonable
inferences drawn from it in the light most favorable
to the nonmoving party.” Eghnayem v. Bos. Sci.
Corp., 873 F.3d 1304, 1313 (11th Cir. 2017).
III. Discussion
“As a general rule, to prevail on a claim of a
substantive due-process violation, a plaintiff must
prove that a defendant’s conduct ‘shocks the
conscience.’” Nix v. Franklin Cty. Sch. Dist., 311
F.3d 1373, 1375 (11th Cir. 2002) (quoting Cty. Of

9a

Sacramento v. Lewis, 523 U.S. 833, 846–47 (1998)).

“[O]nly a purpose to cause harm unrelated to the
legitimate object of arrest will satisfy the element of
arbitrary conduct shocking to the conscience,
necessary for a due process violation.” Lewis, 523
U.S. at 836. An official’s “actions ‘intended to injure
in some way unjustifiable by any government
interest’ are those ‘most likely to rise to the
conscience-shocking level.’” Nix, 311 F.3d at 1376
(quoting Lewis, 523 U.S. at 849); see also Fennell v.
Gilstrap, 559 F.3d 1212, 1217 (11th Cir. 2009);
Cockrell v. Sparks, 510 F.3d 1307, 1311 (11th Cir.
2007).
“[T]he bar to establish municipal liability is
very high.” Simmons v. Bradshaw, 879 F.3d 1157,
1169 (11th Cir. 2018). “Plaintiffs who seek to impose
liability on local governments under § 1983 must
prove that ‘action pursuant to official municipal
policy’ caused their injury.” Connick v. Thompson,
563 U.S. 51, 60–61 (2011) (quoting Monell v. Dep’t of
Soc. Servs., 436 U.S. 658, 691 (1978)); see Bd. of Cty.
Comm’rs of Bryan Cty. v. Brown, 520 U.S. 397, 404
(1997); City of Canton v. Harris, 489 U.S. 378, 385–
86 (1989). The plaintiff must “demonstrate that,
through its deliberate conduct, the municipality was
the ‘moving force’ behind the injury alleged.” Bryan
Cty., 520 U.S. at 404 (emphasis in original). “Official
municipal policy includes the decisions of a
government’s
lawmakers,
the
acts
of
its
policymaking officials, and practices so persistent
and widespread as to practically have the force of
law.” Connick, 563 U.S. at 61. A custom requires the
plaintiff to identify evidence showing “[a] pattern of
similar constitutional violations.” Craig v. Floyd

10a

Cty., 643 F.3d 1306, 1310 (11th Cir. 2011) (quoting
Connick, 563 U.S. at 62).

A municipality’s “culpability for a deprivation
of rights is at its most tenuous
where a claim turns on a failure to train.” Connick,
563 U.S. at 61. A municipality’s
“failure to train its employees in a relevant respect
must amount to ‘deliberate indifference to the rights
of persons with whom the untrained employees come
into contact.’” Id. (alteration omitted) (quoting
Canton, 489 U.S. at 388). “[W]hen city policymakers
are on actual or constructive notice that a particular
omission in their training program causes city
employees to violate citizens’ constitutional rights,
the city may be deemed deliberately indifferent if the
policymakers choose to retain that program.” Id. “A
pattern of similar constitutional violations by
untrained employees is ‘ordinarily necessary’ to
demonstrate deliberate indifference for purposes of
failure to train.” Id. at 62 (quoting Bryan Cty., 520
U.S. at 409).
Because this appeal focuses on the sufficiency
of the evidence, we first consider whether the district
court abused its discretion in excluding certain trial
evidence. Finding no error, we then analyze whether
the admitted evidence was enough for a reasonable
jury to find that the City had an unconstitutional
custom relating to using deadly force or engaging in
high-speed vehicle pursuits, or was deliberately
indifferent to the need for more or different training
on using deadly force and engaging in high-speed
vehicle pursuits. Again, we find no error.
A. The Evidentiary Ruling

11a
Perez sought to admit arrest-warrant
affidavits executed by two Miami-Dade detectives in
2017 to obtain warrants against two former City
police officers for misconduct allegedly committed
while on duty in 2012. The affidavits detailed eight
incidents in which the former officers allegedly
unlawfully entered houses, took property, towed
vehicles, beat and tasered suspects while
interrogating them, and at least once waterboarded
a suspect. None of the eight incidents involved
officers using deadly force or conducting high-speed
vehicle chases. One incident occurred in September
2010, before the chase and crash here, but the other
seven were after, occurring between May and
September 2012.
The district court excluded the affidavit
sections discussing the post-event incidents, but
admitted the introductory paragraphs and the
description of the September 2010 incident. Perez
argues that the district court erred in excluding the
affidavit sections on the post-event incidents,
because they would have “proven several other
instances of the same administrator turning a blind
eye and actually encouraging constitutional
violations.” Appellant’s Reply Br. at 20 (emphasis
omitted).
“Evidence is relevant if it has any tendency to
make a fact more or less probable than it would be
without the evidence, and the fact is of consequence
in determining the action.” Aycock, 769 F.3d at 1068
(citing FED. R.EVID. 401). “Even if the evidence is
relevant, the court may exclude it if its probative
value is substantially outweighed by a danger of
‘unfair prejudice, confusing the issues, misleading
the jury, undue delay, wasting time, or needlessly

12a
presenting cumulative evidence.’” Id. (quoting FED.
R. EVID. 403).
The events described in the excluded sections
of the affidavits are evidence of factual situations
that have no similarity to this case. See Mercado v.
City of Orlando, 407 F.3d 1152, 1162 (11th Cir.
2005). The events described in the excluded sections
did not involve deadly force or high-speed vehicle
pursuits. The only similarities between the excluded
incidents and the events here are that vehicles were
involved in both and some of the excluded incidents
involved traffic stops. Because the excluded sections
of the affidavits discussed events that were so
dissimilar, they were of little to no relevance, and
whatever relevance was present was clearly
outweighed by the risks of unfairly prejudicing the
City and confusing the jury. The district court was
well within its discretion in excluding this evidence.
B. The City’s Custom
Perez had to prove by a preponderance of the
evidence that the City “had a custom or policy that
constituted deliberate indifference” to his Fourteenth
Amendment right to be free from the arbitrary,
conscience-shocking use of deadly force. McDowell v.
Brown, 392 F.3d 1283, 1289 (11th Cir. 2004).
Meeting this burden required evidence of a “pattern
of similar constitutional violations” supporting a
reasonable inference that the City had “such a
longstanding and widespread practice [relating to
conscience-shocking deadly force] that it is deemed
authorized by the policymaking official because they
must have known about it but failed to stop it.”

13a

Craig, 643 F.3d at 1310 (alteration and quotation

omitted).
There is no evidence of a written policy
encouraging or authorizing police officers to use
conscience-shocking deadly force, and Perez
presented no evidence of similar prior incidents. He
cites a prior high-speed pursuit by Officer Benito,
but this incident fails the similarity test; the pursuit
there was authorized, caused no injuries, and
resulted in robbery suspects’ immediate arrest.
Perez’s theory of liability was instead that a
“culture of corruption” existed in the City’s police
department around the enforcement of a towing
ordinance and alleged wrongdoing by officers in the
City police department’s General Investigation Unit.
The first problem is that there is no evidence that
the stop, shooting, or chase here had anything to do
with police intending to seize Torrealba’s vehicle and
have it towed. The second problem is that the prior
incidents Perez cites have nothing to do with what
the evidence here showed were the circumstances
surrounding the stop, the use of force, and the
pursuit.
Perez contends that the trial evidence
supported a reasonable inference that “the decision
makers in the City had notice that their officers were
using unnecessary force and unlawful means to
make use of the towing ordinance for the benefit of
the City and City officials.” Appellant’s Amended Br.
at 26–30. Perez argues that “[i]t is entirely
reasonable for the jurors to conclude that if the City
would tolerate illegal stops and investigations,
unnecessary force against citizens[,] and unlawful
taking of their property[,] that the City would

14a
tolerate the level of force in this case.” Appellant’s
Reply Br. at 13.
Perez’s arguments fail. He does not identify
trial evidence of prior similar incidents involving
police officers confronted with a suspect they
believed was armed, who disregarded their orders,
pointed a gun at an officer, and fled at high speed.
The district court correctly found that the evidence
was not sufficient to allow a reasonable jury to
conclude that the City had a “longstanding and
widespread practice” of encouraging the conscienceshocking use of deadly force in similar
circumstances. Craig, 643 F.3d at 1310 (quoting
Brown v. City of Fort Lauderdale, 923 F.2d 1474,
1481 (11th Cir. 1991)).
Nor does the evidence support “a direct causal
link” between the alleged custom of overly
aggressive enforcement of the City towing ordinance
and the crash that caused Perez’s injuries. Cuesta v.
Bd. of Miami-Dade Cty., 285 F.3d 962, 967 (11th Cir.
2002) (quotation omitted); see Bryan Cty., 520 U.S.
at 410 (“[A] court must carefully test the link
between the policymaker’s inadequate decision and
the particular injury alleged.”). No evidence showed
that the prospect of a towing fee played any role in
Officer Brioso stopping the Mercedes when he saw it
speeding through the public streets in the predawn
hours after New Year’s Day.2No evidence showed
that the towing ordinance played any role in the
questioning of Torrealba that followed and led to the
discovery that he had provided a false Texas
2

While Torrealba denied racing another car, neither he
nor his passenger could recall whether they were speeding.

15a
identification and lied about not having a Florida
license. No evidence showed that towing had
anything to do with the subsequent use of deadly
force in response to Torrealba’s undisputed disregard
for police orders and the evidence that he drew a
handgun, pointed it at a police officer, and drove
away at high speed. No evidence showed that the
“known or obvious consequences” of enforcing the
towing ordinance or chasing a fleeing suspect,
especially one believed to be armed, would be a
conscience-shocking use of deadly force. Am. Fed. of

Labor & Cong. of Indus.
Orgs. v. City of Miami, 637 F.3d 1178, 1187 (11th

Cir. 2011) (quotation omitted).
Perez asserts that the City ratified the
officers’ allegedly unconstitutional behavior by
having “a ‘chaotic’ department”; “failing to conduct
any internal investigation after the incident”; failing
to require Officers Gonzalez and Brioso to make a
written report after they fired their weapons at
Torrealba; and sending “their own crime scene units
to sanitiz[e] the crime scene.” Appellant’s Amended
Br. At 31, 34. But Perez identifies no evidence that
the City’s policymakers reviewed the officers’ actions
“before they became final” or approved their
“decision and the basis for it.” Salvato v. Miley, 790
F.3d 1286, 1296 (11th Cir. 2015) (alteration and
quotation omitted). A reasonable jury could not have
found that the City ratified the
officers’ actions.
Having submitted the case to the jury despite
the scant evidence, the district court did what no
trial judge relishes doing—granting judgment
notwithstanding the verdict because the evidence
was insufficient to make it reasonable, as a matter of

16a
law. The district court did not err in entering
judgment as a matter of law for the City as to Perez’s
claim that the City had an unconstitutional custom
that was the moving force behind the constitutional
violations and his injuries.
C. The City’s Failure to Train
Perez’s failure-to-train theory fares no better.
Perez had to prove by a preponderance of the
evidence that the City was deliberately indifferent to
the need for different or more officer training or
supervision on using deadly force or engaging in
high-speed pursuits. The trial evidence made it
unreasonable for the jury to find “[a] pattern of
similar constitutional violations by untrained
employees,” as needed to demonstrate deliberate
indifference to the risk of constitutional violations
that was a moving force behind Perez’s injuries.
Connick, 563 U.S. at 62; Mercado, 407 F.3d at 1162.
Perez pieced together arguments connected
only by the fact that they generally involved police
encounters with vehicles. He argued, for example,
that “during the relevant time, [the] officers were
unrestricted when it came to making stops outside
their jurisdiction”; the “officers were often illegally
towing cars without authority”;
the officers involved in this case did not receive, and
were not required to know, the
City’s Standard Operating Procedures; and “the
shooting officers were not properly trained on the
City’s policy against shooting into moving vehicles.”
Appellant’s Amended Br. at 37–38, 40–42. He
generally argued that the City was “deficient in its

17a
hiring practices” and that the officers here were
“inexperienced and untrained.” Id. at 41–42.
But the arguments and evidence Perez
presented were not of circumstances “substantially
similar” to the constitutional violation that Perez
has asserted: a conscience-shocking use of force and
the high-speed pursuit of a fleeing suspect who had
lied in answering the officers’ questions and
disregarded direct orders, particularly given the
testimony that the officers believed him to be armed.
Mercado, 407 F.3d at 1162. Perez’s evidence could
not have put the City on actual or constructive notice
that its police officers required additional training or
supervision in the “particular area[s]” of deadly force
or high-speed pursuits to avoid the constitutional
violations he alleged. Gold v. City of Miami, 151 F.3d
1346, 1351–52 (11th Cir. 1998); see, e.g., Connick,
563 U.S. at 63 (“Because those incidents are not
similar to the violation at issue here, they could not
have put Connick on notice that specific training was
necessary to avoid this constitutional violation.”).
Perez argues that the officers’ “need for more
or different training [was] so obvious, and the
inadequacy so likely to result in the violation of
constitutional rights, that the policymakers of the
[C]ity can reasonably be said to have been
deliberately indifferent to the need.” Appellant’s
Amended Br. at 45. Perez points out that Officer
Gonzalez, a new officer who was “never handed a
copy of the City’s standard operating procedures,”
was unsure whether “the standard operating
procedures were reviewed with him.” Id. at 46–47.
Officer Gonzalez was at some point “suspended or
reprimanded for falsifying a police report or at the
very least not following police procedures.” Id. None

18a
of this shows that if Officer Gonzalez had had more
experience or had read the procedures, that would
have made any difference at all, given the evidence
as to what happened at the scene leading up to the
pursuit and crash. Perez’s allegations about Officer
Gonzalez’s training are insufficient for a reasonable
jury to find the City liable for failure to train or
supervise. See Canton, 489 U.S. at 390–91 (“That a
particular officer may be unsatisfactorily trained will
not alone suffice to fasten liability on the city . . .
Neither will it suffice to prove that an injury or
accident could have been avoided if an officer had
had better or more training.”).
Evidence on the City’s training program came
from Officer Brioso’s testimony that all City police
officers had to take “training classes” on deadly force
“either once a year or every six months” to “stay
certified” with the FloridaDepartment of Law
Enforcement. This testimony does not support
finding that the City’s training regimen as to deadly
force or high-speed pursuits was “so obvious[ly]”
inadequate and “so likely to result in the violation of
constitutional rights” that the City could “reasonably
be said to have been deliberately indifferent.”
Canton, 489 U.S. at 390.
The district court did not err in finding that
no reasonable jury could conclude that the City was
deliberately indifferent to a need for training or
supervision as to deadly force or high-speed pursuits.
The district court did not err in granting judgment
as a matter of law on the failure to train claim.
IV. Conclusion

19a
The district court’s judgment for the City as a
matter of law is AFFIRMED.

20a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-24267-CIV-ALTONAGA/Goodman
JUAN L. PEREZ and MARIA A.
POSADA,
Plaintiffs,
vs.
CITY OF SWEETWATER, et al.,
Defendants.
_______________________________/
ORDER
THIS CAUSE came before the Court upon
Defendant, the City of Sweetwater’s Amended
Renewed Motion for Judgment as a Matter of Law . .
. and Alternative Motion for New Trial [ECF No.
182], filed November 20, 2017. On December 1, 2017,
Plaintiff, Juan Perez, filed a Response [ECF No.
194]; to which the City filed a Reply [ECF No. 195]
on December 8, 2017. The Court has carefully
considered the parties’ submissions, the record, and
applicable law.
I. BACKGROUND
This case concerns actions taken by the City’s
police officers during a traffic stop of an individual
who in turn went on to crash into Perez’s vehicle at
high speed, causing Perez head injuries. (See
generally Amended Complaint [ECF No. 33]). The
Court assumes the reader’s knowledge of the

21a
intricate facts as discussed in prior orders (see
December 22, 2016 Order [ECF No. 30]; July 6, 2017
Order [ECF No. 99]), but provides a brief
background for the purpose of this Order.
On the morning of January 2, 2012, during his
commute to work, Sweetwater Police Officer Richard
Brioso stopped Felipe Torrealba, who was driving a
black Mercedes-Benz sedan, for driving erratically.
(See Am. Compl. ¶¶ 25–26). The stop was initiated
outside the City’s geographical jurisdiction. (See
Trial Day 3 Transcript [ECF No. 187] 191:4–1213).
Sweetwater Police Officers Domingo Benito, Rafael
Duarte and Armando Gonzalez arrived on the scene
as backup. (See Am. Compl. ¶ 27; Trial Day 2
Transcript [ECF No. 186] 95:14–20).
Torrealba and the vehicle’s passenger,
Dondrey St. Phar, were asked to exit the car. (See
Am. Compl. ¶ 28; Trial Day 1 Transcript [ECF No.
185] 143:15–44:13). The traffic stop then escalated
into a physical confrontation with Torrealba, during
which Brioso and Gonzalez drew their weapons and
attempted to shoot Torrealba. (See Am. Compl. ¶
29). Torrealba ran back to his car and fled, while
Brioso and Gonzalez fired at Torrealba’s vehicle.
(See id. ¶ 32; Trial Day 1 Tr. 146:18–25). Benito put
his car in drive and pursued Torrealba. (See Trial
Day 3 Tr. 72:4–8; Trial Day 4 Transcript [ECF No.
188] 122:6–24:13).
Per Torrealba’s account, a bullet struck him in
the ear; as a result, he crashed into Perez’s pickup
The Court uses the pagination generated by the Case
Management/Electronic Case Files system, which appears as a
header on all court filings.

3

22a
truck. (See Trial Day 1 Tr. 146:20–25, 148:20–25).
Perez’s truck rolled multiple times off the road and
struck a palm tree. (See Am. Compl. ¶ 37). Torrealba
fled on foot, jumped in a canal, and escaped. (See
City of Sweetwater’s Statement of Undisputed
Material Facts [ECF No. 70] ¶ 20; Plaintiffs’
Response to Defendant City of Sweetwater’s
Statement of Material Facts [ECF No. 81] ¶ 20
(undisputed)). Perez was rescued from the crushed
truck by Miami-Dade Fire Rescue and taken to the
hospital, where he was diagnosed with a closed head
injury and subdural hematoma. (See Am. Compl. ¶
38).
On December 22, 2015, Perez and his wife,
Maria Posada, brought suit against the City, Duarte,
Brioso, and Gonzalez in state court to recover for
Perez’s injuries and Posada’s loss of consortium. (See
Complaint for Damages [ECF No. 1-2] 5–19).
Defendants removed the case on October 7, 2016 (see
Notice of Removal [ECF No. 1]), and Plaintiffs filed
their Amended Complaint on January 5, 2017 (see
Am. Compl.). Plaintiffs brought the following claims
against Defendants: (1) negligence against the City
(“Count 1”); (2) negligence against Duarte, Brioso
and Gonzalez (“Count 2”); (3) a claim against Brioso,
Duarte, and Gonzalez for violations of 42 U.S.C.
section 1983 (“Count 3”); and (4) a claim against the
City for violation of 42 U.S.C. section 1983 (“Count
4”). (See generally Am. Compl.). On July 18, 2017,
the Court dismissed the claims against Duarte, but
denied Brioso and Gonzalez’s request for summary
judgment for procedural reasons. (See July 18, 2017
Order [ECF No. 105] 2). After Brioso and Gonzalez
appealed the July 18 Order, the Court stayed the
case as to Brioso and Gonzalez and bifurcated the

23a
proceeding, allowing the claims against the City to
go forward. (See July 28, 2017 Order [ECF No. 110];
see also August 23, 2017 Order [ECF No. 121]). On
the first day of trial, Plaintiffs voluntarily dismissed
the negligence claim against the City. (See Notice of
Filing Transcript of Trial – Day 1, Ex. 1 [ECF No.
176-1] 7:8–23).
The six-day jury trial between Plaintiffs and
the City began September 6, 2017 and concluded
September 25, 2017.4 (See Trial Transcripts [ECF
Nos. 184–90]). At the close of Plaintiffs’ case-in-chief,
the City moved pursuant to Federal Rule of Civil
Procedure 50(a) for judgment as a matter of law.
(See Trial Tr. Day 4 97:23–103:11). The Court denied
the motion. (See id. 108:4). At the close of all of the
evidence, the City renewed its Rule 50(a) motion (see
id. 162:3–25), and the Court deferred ruling on the
motion pending the jury’s determination (see id.
168:24–69:1).
On September 25, 2017, the jury returned a
verdict with the following findings: (1) Torrealba did
not pose an immediate threat of serious physical
harm to the Sweetwater police officers during the
traffic stop; (2) the use of deadly force against
Torrealba shocked the conscience; (3) the use of
deadly force against Torrealba was pursuant to an
official policy or custom of the City approving
conscience-shocking use of force; (4) the use of deadly
force against Torrealba resulted from the City’s
deliberate indifference to a known need for
additional supervision or training of its officers in
the use of deadly force; (5) the City’s official policy or
4

The trial was interrupted by court closures in preparation for,
and in the aftermath of, Hurricane Irma.

24a
custom approving of conscience-shocking use of
deadly force caused Perez’s injuries; (6) the City’s
deliberate indifference to a known need for
additional supervision or training in the use of
deadly force caused Perez’s injuries; (7) Sweetwater
police officers engaged in a high-speed chase of
Torrealba; (8) the high-speed chase shocked the
conscience; (9) the high speed chase was not
pursuant to an official policy or custom of the City
which approved of conscience-shocking high speed
chases; (10) the high-speed chase resulted from the
City’s deliberate indifference to a known need for
additional supervision or training in the conduct of
high-speed chases; and (11) the City’s deliberate
indifference to a known need for additional
supervision or training in the conduct of high-speed
chases caused Perez’s injuries. (See generally
Verdict [ECF No. 160]). The jury awarded Perez
$1,000,000.00 in compensatory damages and decided
Posada should not be granted damages for loss of
consortium. (See id. ¶¶ 13–14).
On September 26, 2017, the Court entered a
Final Judgment [ECF No. 164] in favor of Perez and
against the City for $1,000,000.00 in compensatory
damages. (See Final Judgment ¶ 1). On October 23,
2017, the City timely filed its Renewed Motion for
Judgment as a Matter of Law [ECF No. 173],
without citations to the trial transcript. On
November 8, 2017, the Court denied the Renewed
Motion without prejudice and directed the City to
file an amended motion containing citations to the
trial transcript once the transcript became available.
(See November 8 Order [ECF No. 175] 2).
On November 20, 2017, the City filed the
present Amended Renewed Motion pursuant to

25a
Federal Rules of Civil Procedure 50(b) and 59,
requesting judgment in its favor as a matter of law
vacating the Final Judgment in favor of Perez. (See
generally Mot.). In the alternative, the City requests
a new trial on liability. (See id. 13–15). For the
reasons discussed below, the Court finds the City is
entitled to judgment as a matter of law.
II. LEGAL STANDARD
Federal Rule of Civil Procedure 50(b) governs
renewed motions for judgment as a matter of law.
Under this standard, a “district court should grant
judgment as a matter of law when the plaintiff
presents no legally sufficient evidentiary basis for a
reasonable jury to find for him on a material element
of his cause of action.” Pickett v. Tyson Fresh Meats,
Inc., 420 F.3d 1272, 1278 (11th Cir. 2005) (citation
omitted). Conversely, the court should deny the
motion “if the plaintiff presents enough evidence to
create a substantial conflict in the evidence on an
essential element of the plaintiff’s case.” Id.
(citations omitted). “Although [the court] look[s] at
the evidence in the light most favorable to the nonmoving party, the non-movant must put forth more
than a mere scintilla of evidence suggesting that
reasonable minds could reach differing verdicts.”
Campbell v. Rainbow City, 434 F.3d 1306, 1312
(11th Cir. 2006) (alterations added; internal
quotation marks omitted) (quoting Abel v. Dubberly,
210 F.3d 1334, 1337 (11th Cir. 2000)).
III. ANALYSIS

26a
The City argues judgment as a matter of law
is warranted because: (1) there is no legal basis to
recognize a violation of Perez’s substantive due
process rights for shots fired by Sweetwater officers
at Torrealba (see Mot. 6–7); (2) the jury had no basis
to find a high-speed chase occurred (see id. 7–9); (3)
there was no evidentiary basis to find the officers’
use of deadly force on Torrealba was pursuant to a
City official policy approving of conscience-shocking
use of deadly force (see id. 9–10); (4) there was no
basis for the jury to find the officers’ shooting of
Torrealba resulted from the City’s deliberate
indifference to a known need for additional training
of its officers in the use of deadly force (see id. 10–
12); (5) the jury correctly found the officers’ high
speed chase was not pursuant to any official City
policy or custom (see id. 12); and (6) there was no
legally sufficient basis for the jury to find the
officers’ conscience-shocking high-speed chase
resulted from the City’s deliberate indifference to a
known need for additional training of its officers in
high-speed chases (see id. 12–13). As the Court finds
the jury had no reasonable basis to impute liability
to the City for the officers’ conscience-shocking
behavior, it declines to examine whether Perez
suffered a legally cognizable substantive due process
violation or whether there was sufficient evidence to
conclude a high-speed chase occurred.
A. Municipal Liability, Generally
Under section 1983, a municipality cannot be
held liable on a theory of respondeat superior; it may
only be held liable for its own, independent
violations of federal law. See Monell v. Dep’t of Soc.

27a

Servs., 436 U.S. 658, 691 (1978). “Local governing

bodies, therefore, can be sued directly under [section]
1983 for monetary, declaratory, or injunctive relief
where . . . the action that is alleged to be
unconstitutional implements or executes a policy
statement, ordinance, regulation, or decision
officially adopted and promulgated by that body’s
officers.”Id. at 690 (alterations added; footnote call
number omitted). A municipality may also be sued
for violations of federal rights “visited pursuant to
governmental ‘custom’ even though such a custom
has not received formal approval through the body’s
official decisionmaking channels.” Id. at 690–91.
Such a custom must be “so persistent and
widespread as to practically have the force of law.”
Connick v. Thompson, 563 U.S. 51, 61 (2011)
(citations omitted). To prevail under this theory of
municipal liability, a plaintiff must show: (1) the
violation of a federal right occurred; (2) the existence
of a municipal policy or custom; and (3) a causal
connection between the violation and the municipal
policy or custom. See City of Canton v. Harris, 489
U.S. 378, 385 (1989).
In lieu of showing a policy or custom, a
plaintiff may invoke the narrower “failure to train”
theory of liability, although the circumstances giving
rise to such a liability are quite limited: a plaintiff
must prove “deliberate indifference to the rights of
persons with whom the [municipal employees] come
into contact.” Id. at 388 (alteration added; footnote
call number omitted). To show “deliberate
indifference,” a plaintiff must present evidence “the
municipality knew of a need to train and/or
supervise in a particular area and the municipality
made a deliberate choice not to take any action.”

28a

Gold v. City of Miami, 151 F.3d 1346, 1350 (11th Cir.

1998) (citations omitted). The Eleventh Circuit
“repeatedly has held that without notice of a need to
train or supervise in a particular area, a
municipality is not liable as a matter of law for any
failure to train and supervise.” Id. at 1351 (footnote
call number omitted). Indeed, “[w]ithout notice that
a course of training is deficient in a particular
respect, decisionmakers can hardly be said to have
deliberately chosen a training program that will
cause violations of constitutional rights.” Connick,
563 U.S. at 62 (emphasis and alteration added).
Additionally, the deficient training of one officer is
not sufficient to meet this standard; rather the
deficiency must be widespread and closely related to
the plaintiff’s injury. See Canton, 489 U.S. at 390–
91.
“A pattern of similar constitutional violations
by untrained employees is ‘ordinarily necessary’ to
demonstrate deliberate indifference for purposes of
failure to train.” Connick, 563 U.S. at 62 (quoting
Bd. of Cty. Comm’rs v. Brown, 520 U.S. 397, 409
(1997)). Nevertheless, “the Supreme Court has
‘hypothesized’ that ‘in a narrow range of
circumstances,’ a municipality may be liable under
[s]ection 1983 when a single incident is the ‘obvious’
consequence of a failure to provide specific training.”
Whitaker v. Miami-Dade Cty., 126 F. Supp. 3d 1313,
1324 (S.D. Fla. 2015) (alteration added) (quoting
Connick, 563 U.S. at 62).
B. Policy or Custom
The jury found the City had a policy or custom
approving of the “conscience-shocking” use of deadly

29a
force, which caused Perez’s injuries. (Verdict ¶ 5
(internal quotation marks omitted)).5 But at trial,
Plaintiffs presented no evidence of an official City
policy encouraging or condoning shooting in a
conscience-shocking manner. To the contrary,
Plaintiffs’ expert on police policies and procedure,
Roy Taylor, testified the City’s policies on use of
force were consistent with the policies of the
International Association of Chiefs of Police (see
Trial Day 3 Tr. 69:1–8); the City’s written police
procedures prohibited the discharge of a firearm to
arrest or stop a person who has committed a
misdemeanor (see id. 55:14–56:5); the City had a
policy against shooting moving vehicles (see id.
44:11–12); and Gonzalez and Brioso’s use of their
firearms violated the City’s written procedures (see
id. 56:6–11). Plaintiffs’ claim under the custom or
policy theory of municipal liability, therefore, rests
on the existence of a “widespread practice” of
conscience-shocking use of deadly force “that,
although not authorized by written law or express
municipal policy, is so permanent and well settled as
to constitute a custom or usage with the force of
law.” Brown v. City of Ft. Lauderdale, 923 F.2d
1474, 1481 (11th Cir. 1991) (internal quotation
marks omitted) (quoting City of St. Louis v.
Praprotnik, 485 U.S. 112, 127 (1988)).
“[A] longstanding and widespread practice is
deemed authorized by the policymaking officials
because they must have known about it but failed to
This finding is limited to a policy or custom of
shooting, as the jury did not find the high-speed
chase was pursuant to any City policy or custom.
(See Verdict ¶ 9).
5

30a
stop it.” Id. (alteration added). “The deprivations
that constitute widespread abuse sufficient to notify
the supervising official must be obvious, flagrant,
rampant and of continued duration, rather than
isolated occurrences.” Brown v. Crawford, 906 F.2d
667, 671 (11th Cir. 1990) (citations omitted). “This
threshold identification of a custom or policy ensures
that a municipality is held liable only for those
deprivations resulting from the decisions of its duly
constituted legislative body or of those officials
whose acts may fairly be said to be those of the
municipality” and “prevents the imposition of
liability based upon an isolated incident.” McDowell
v. Brown, 392 F.3d 1283, 1290 (11th Cir. 2004)
(internal quotation marks and citations omitted).
In support of their attempt to show a
municipal custom, Plaintiffs introduced testimony
from Special Agent William Victor Saladrigas and
Detective David Colon, who described their
investigation of the City’s police department for
conduct from 2010 onward. (See Trial Day 1 Tr.
106:11–42:16). Saladrigas informed the jury of a
2010 incident during which City officers forcibly
entered a suspect’s house while he was in their
custody; removed cash and valuables from the house;
towed the suspect’s car; and reportedly hit the
suspect, leaving abrasions or reddish coloring on his
face. (See id. 108:13–12:15). No weapons were
discharged during that incident. (See id. 131:1–7).
Saladrigas also testified the City towed a
comparatively high number of cars compared to
other police departments of its size in 2011 (see id.
115:2–12); conducted “a lot of enforcement activity”
outside its jurisdiction (id. 117:3–15); routinely
targeted for investigation immigrants who were “not

31a
proficient in the English language” and “not skilled”
(id. 123:14–25); City officers had been “using
excessive force” against suspects before 2012 (id.
117:20–23), and officers had been suspended for this
conduct (see id. 120:5–15). Saladrigas concluded,
based on his investigation, City officers “engaged in
a custom of using police action to unlawfully tow
vehicles” (id. 130:3–4), without legal authority (see
id. 130:6–7).
Colon described the City of Sweetwater
culture as “one to be of officers not following policies,
policies that were not clear, and a cultural
corruption, basically, within the Sweetwater Police
Department.” (Id. 137:7–10). Colon found in 2011
leading up to 2012, the City had a “culture or a
custom of doing investigations or stops outside of
their jurisdiction without authority.” (Id. 142:10–11).
Plaintiffs also introduced a partially redacted
Affidavit in Support of Arrest Warrant (see [ECF No.
168-1] 25–82) from 2017, drafted by Saladrigas and
Colon. The un-redacted portion of the Affidavit
describes a “culture of corruption” throughout the
City of Sweetwater police department, in which
members of the department “while operating under
color of law, engaged in a protracted pattern of
racketeering activity that included, but is not limited
to, multiple acts of theft, fraud, burglary, torture and
other violent crimes against civilians.” (Id. 33). The
Affidavit also includes a recount of the 2010 incident
about which Saladrigas testified (see id. 33–35), and
a description of an unlawful car towing scheme
conducted by the City (see id. 31–33).
In addition to the Affidavit and the testimony
by Saladrigas and Colon, Perez asserts the jury’s
finding that the conscience-shocking use of deadly

32a
force was pursuant to a City custom is supported by
the testimony of City records custodian Mercedes
Roques. (See Resp. 6–7; see also Trial Day 3 Tr.
117:18–19). Roques testified $1 million in towing
fees went missing in the City’s police department
around 2011 and there were recordkeeping issues
surrounding those towing fees. (See Trial Day 3 Tr.
128:11–32:25). Roques described 2011 as “a bit
chaotic” with regard to recordkeeping and
supervision within the department (id. 133:18), and
testified the recordkeeping procedures were poorly
managed and the detective bureau was “basically
running amuck” (id. 134:16). Roques testified unlike
many other police departments, the City’s did not
have a records department from 2010 through 2012.
(See id. 137:8–21).
Plaintiffs fall well short of showing a rampant
and widespread practice of conscience-shocking use
of lethal force by City police officers sufficient for a
reasonable jury to believe such force was employed
pursuant to a City custom. While testimony and
evidence put forth by Plaintiffs describe a culture of
corruption and a scheme involving car towing, the
testimony of Saladrigas, Colon, and Roques, as well
as the numerous exhibits admitted, all lack any
indication of even one prior incident involving the
conscience-shocking use of a firearm or other lethal
force. Accordingly, the jury’s finding that the City
had a “custom” which “approved of the ‘conscience
shocking’ use of deadly force” that caused Perez’s
injuries (Verdict ¶¶ 3, 5) was not reasonable. See,
e.g., Depew v. City of St. Marys, 787 F.2d 1496, 1499
(11th Cir. 1986) (“[R]andom acts or isolated incidents
are insufficient to establish a custom or policy.”
(alteration added; citation omitted)); Denham v.

33a

Corizon Health, Inc., 675 F. App’x 935, 944 (11th

Cir. 2017) (proof of “a single incident of
unconstitutional activity” held insufficient to show a
municipal custom (internal quotation marks
omitted) (quoting Craig v. Floyd Cty., 643 F.3d 1306,
1312 (11th Cir. 2011))); Asia v. City of Miami
Gardens, No. 14-20117-CIV, 2016 WL 739656, at *8
(S.D. Fla. Feb. 25, 2016) (“Plaintiff has failed to
present any evidence of prior incidents of
constitutional injuries similar to his, . . . and his own
experience with the City’s police officers is
insufficient to establish a custom or practice.”
(alteration added; citations omitted)); Adams v.
Custer, No. 14-80403-CIV, 2016 WL 155081, at *19
(S.D. Fla. Jan. 12, 2016) (four isolated shootings held
not enough to “establish[] a pattern that is so
‘obvious, flagrant, rampant and of continued
duration’ and that would establish a ‘causal
connection’ between actions of the Sheriff and the
alleged constitutional deprivations” (alteration
added) (quoting Hartley v. Parnell, 193 F.3d 1263,
1269 (11th Cir. 1999); other citations omitted)), aff’d
sub nom. Adams v. Sheriff of Palm Beach Cty., 658
F. App’x 557 (11th Cir. 2016).
C. Deliberate Indifference
The jury found Perez’s injuries were also
caused by the City’s deliberate indifference to a
known need for additional supervision or training in
the use of deadly force and in the conduct of highspeed chases. (See Verdict ¶¶ 4, 6, 10, 12). This
finding, too, was not reasonable.

1. Pattern of Similar Prior Incidents

34a
As noted, a claim of deliberate indifference
premised on failure to train or supervise usually
requires a showing of “a widespread pattern of
similar constitutional violations by untrained
employees.” Mingo v. City of Mobile, 592 F. App’x
793, 799 (11th Cir. 2014); see also Connick, 563 U.S.
at 62 (“A pattern of similar constitutional violations
by untrained employees is ‘ordinarily necessary’ to
demonstrate deliberate indifference for purposes of
failure to train.” (citation omitted)). “Prior incidents .
. . must involve facts substantially similar to those at
hand in order to be relevant to a deliberateindifference claim.” Shehada v. Tavss, 965 F. Supp.
2d 1358, 1374 (S.D. Fla. 2013) (alteration added)
(citing Mercado v. City of Orlando, 407 F.3d 1152,
1162 (11th Cir. 2005), and Gold, 151 F.3d at 1351).
As the Court concluded in Section III.B, supra,
Plaintiffs failed to show a single prior incident of
conscience-shocking deadly force employed by City
officers. With regard to the vehicular pursuit, the
record contains evidence of only one other high-speed
chase by a City of Sweetwater officer. On crossexamination, Benito testified he had previously
engaged in a high-speed pursuit of a vehicle that had
refused to stop for his colleague, Officer Abreu, and
which he had been told by dispatch had just been
involved in a home invasion and possibly a homicide.
(See Trial Day 4 Tr. 152:7–23). Benito admitted
Abreu “knew what [Benito] knew” at the time of the
chase (id. 155:6–7), and Abreu initiated the chase
before dispatch announced the vehicle had been
involved in a violent felony (see id. 152:24–53:21 &
154:20–55:7). Benito testified a lieutenant had
ordered Abreu to cancel the chase until dispatch
communicated the vehicle had been involved in a

35a
home invasion and possible homicide, at which point
Benito was authorized to pursue the suspect and the
chase resumed. (See id. 154:24–55:1 & 159:22–
60:10). The chase resulted in an accident in which no
one was hurt. (See id. 155:19–23). Benito
successfully apprehended the suspects in the vehicle
and received commendation for doing so. (See id.
160:13–17).
Even viewing this evidence in the light most
favorable to Perez, the Court fails to see how a
reasonable jury could conclude the City was on
notice of a “pattern of similar constitutional
violations” to the conscience-shocking chase that
resulted in Perez’s injuries, Connick, 563 U.S. at 62
(emphases added; citation omitted), where the one
prior chase discussed by Benito was authorized due
to the vehicle’s suspected involvement in violent
felonies and resulted in the successful apprehension
of the vehicle’s occupants without any injuries.
Based on Benito’s unrebutted testimony, the prior
chase was not in any way conscience-shocking. While
Perez argues Abreu’s chase was initiated for an
improper reason — failure to comply with a traffic
stop — Benito testified the chase was quickly
authorized over dispatch due to the vehicle’s
occupants’ suspected participation in a home
invasion, and Benito even received commendation
for his conduct during the incident. (See Trial Day 4
Tr. 160:8–17). Plaintiffs therefore failed to make a
reasonable
showing
the
prior
chase
was
“substantially similar” to the officers’ chase of
Torrealba. Shehada, 965 F. Supp. 2d at 1374.
Even assuming it did constitute a similar
constitutional violation, the Eleventh Circuit has
declined to a hold a supervisor liable for failure to

36a
train where the plaintiff provided only one preceding
similar incident, as “one prior incident did not
provide the requisite notice . . . that the training
provided . . . was constitutionally deficient.”
Denham, 675 F. App’x at 942 (alterations added;
internal quotation marks omitted) (quoting Keith v.
DeKalb Cty., 749 F.3d 1034, 1053 (11th Cir. 2014));
cf. Brooks v. Scheib, 813 F.2d 1191, 1193 (11th Cir.
1987) (evidence of ten citizen complaints about a
police officer was insufficient to put the city on notice
of past police misconduct because the plaintiff “never
demonstrated that past complaints of police
misconduct had any merit”). Benito’s testimony
regarding the prior chase, by itself, does not show
the City should have been on notice of a failure to
train or supervise its officers in the conduct of highspeed pursuits.6

2. Single-Incident Liability
Perez argues “[i]n any event, in a case such as
this, evidence of prior incidents is not required to
establish a city policy.” (Resp. 11 (alteration added)).
He contends the officers’ conscience-shocking actions
of shooting at Torrealba and engaging in a highspeed pursuit are among the “narrow range of
circumstances” hypothesized by the Supreme Court
under which “a single incident is the obvious
consequence of a failure to provide specific training.”
Whitaker, 126 F. Supp. 3d at 1324 (internal
6

The Court further notes Plaintiffs did not even offer evidence
of the previous chase during their case-in-chief, at the
conclusion of which the City first moved for judgment as a
matter of law. Instead, the evidence was presented during
Plaintiffs’ cross-examination of Benito during the City’s case

37a
quotation marks omitted) (quoting Connick, 563 U.S.
at 62); (see also Resp. 11). The single-incident theory
of liability for failure to train was first theorized in
City of Canton, where the Supreme Court
hypothesized even without a pattern of previous
similar incidents giving a municipality notice of a
failure to train its employees in a certain course of
conduct, it may happen that in light of the duties
assigned to specific officers or employees the need for
more or different training is so obvious, and the
inadequacy so likely to result in the violation of
constitutional rights, that the policymakers of the
city can reasonably be said to have been deliberately
indifferent to the need. 489 U.S. at 390 (footnote call
number omitted). As an “example,” the Court noted:
[C]ity policymakers know to a moral certainty that
their police officers will be required to arrest fleeing
felons. The city has armed its officers with firearms,
in part to allow them to accomplish this task. Thus,
the need to train officers in the use of deadly force . .
. can be said to be “so obvious,” that the failure to do
so could properly be characterized as “deliberate
indifference” to constitutional rights. Id. at 390 n.10
(alterations added; internal citation omitted).
The Supreme Court in Board of County
Commissioners v. Brown later clarified:
In leaving open in Canton the possibility that a
plaintiff might succeed in carrying a failure-to-train
claim without showing a pattern of constitutional
violations, we simply hypothesized that, in a narrow
range of circumstances, a violation of federal rights
may be a highly predictable consequence of a failure
to equip law enforcement officers with specific tools
to handle recurring situations. The likelihood that
the situation will recur and the predictability that

38a
an officer lacking specific tools to handle that
situation will violate citizens’ rights could justify a
finding that policymakers’ decision not to train the
officer reflected “deliberate indifference” to the
obvious consequence of the policymakers’ choice —
namely a violation of a specific constitutional or
statutory right. 520 U.S. at 409–10. In Connick, the
Supreme Court explained it intended in Canton “not
to foreclose the possibility, however rare, that the
unconstitutional consequences of failing to train
could be so patently obvious that a city could be
liable under [section] 1983 without proof of a preexisting pattern of violations.” 563 U.S. at 64
(alteration added).
Neither the Supreme Court nor the Eleventh
Circuit has ever applied the single-incident liability
exception. The Fifth Circuit has upheld a jury
verdict based on this theory of liability. See Brown v.
Bryan Cty., 219 F.3d 450, 465 (5th Cir. 2000). In
Bryan County, a municipality was sued for actions of
a reserve deputy, who “without the benefit of
training or supervision, participated in a car chase
and an arrest involving the use of force,” resulting in
the plaintiff suffering severe knee injuries. Id. at
452. At the time of the incident, the deputy was
“only twenty-one years old,” “inexperienced,” had
only been on the force “for a matter of weeks,” and
had no prior experience as a law enforcement officer.
Id. at 454. The deputy had previously “been arrested
for assault and battery, resisting arrest, public
drunkenness, driving while intoxicated, possession of
false identification, driving with a suspended license,
and nine moving traffic violations.” Id. (footnote call
number omitted). At the time he was hired, the

39a
deputy had an outstanding warrant for his own
arrest for violating probation. See id. at 454–55.
At trial, “the evidence . . . showed the County
to have a policy of providing no training itself for its
regular officers and reserve deputies.” Id. at 455
(alteration and emphasis added). For full-time
positions, the County’s practice was to hire
individuals who had already received training from
Oklahoma’s Commission on Law Enforcement
Education and Training (“CLEET”) program, but the
record was unclear as to whether CLEET training
was required for reserve deputies, and the court
found the jury could have reasonably believed the
deputy had not attended CLEET training. See id.
455–56. While there was evidence the deputy
received some “ad hoc” training from his
grandfather, who was a special deputy in the
department, the record suggested “this training was
minimal at best and included no training on arrest
situations.” Id. at 456 (footnote call number omitted).
“[T]he evidence reasonably supported a conclusion
that the County also failed to provide formal, and
very little effective, supervision for its reserve
deputies who were ‘on the street’” and the officer
accompanying the deputy testified he received none.
Id. (alteration added). “[T]he jury reasonably could
have found that [the deputy] remained, essentially,
unsupervised.” Id. at 463 (alterations added).
The Fifth Circuit held the jury could have
reasonably concluded it was obvious to the county’s
policymaker that the decision not to train the deputy
would result in a constitutional deprivation. See id.
at 463. The court further held “the policy of not
supervising inexperienced officers” could have
reasonably led the jury to conclude “the failure to

40a
train made the County even more culpable for the
constitutional injuries that followed,” id., and the
policy of not providing proper supervision
“contributed to the causal force behind the
constitutional deprivation,” id. at 465. Even without
a pattern of prior similar incidents, the Bryan
County court found:
[G]iven the evidence that provided notice to [the
county decisionmaker] of the highly predictable
consequences of not training [the deputy] — i.e., his
youth, his personal record of recklessness and
questionable judgment, his inexperience, and his
exuberance as a reserve deputy in the short time he
had been on the force, and knowledge that forcible
arrests were inevitable for a law enforcement officer
— [the] policy decision not to require training for
[the deputy] can be said to constitute “deliberate
indifference” to the Fourth Amendment rights of
citizens [the deputy] would encounter.
Id. at 463 (alterations added).
In later cases, the Fifth Circuit has limited
Bryan County to its unique facts. See Whitaker, 126
F. Supp. 3d at 1326 (citing cases). For instance, in

Davis ex rel. McCully v. City of North Richland
Hills, the court found the single-incident exception
did not apply and distinguished Bryan County,
noting in Bryan County, the court “found liability . . .
for a single incident when the county ‘failed to
provide any training or supervision for a young,
inexperienced officer with a record of recklessness,’
while also noting that ‘there is a difference between
a complete failure to train, . . . and a failure to train
in one limited area.’” 406 F.3d 375, 386 (5th Cir.
2005) (alterations added; emphases in original;
footnote call number omitted) (quoting Cozzo v.

41a

Tangipahoa Par. Council-President Gov’t, 279 F.3d
273, 288 (5th Cir. 2002)). In Davis, the court found
“[i]n contrast, here, there was training and Plaintiffs

have not shown that those training sessions were so
deficient as to constitute deliberate indifference.” Id.
at 386 (alteration added; emphasis in original).
This case, too, is distinguishable from Bryan
County. Plaintiffs did not offer evidence the City of
Sweetwater officers received no training or were
“essentially[] unsupervised.” Bryan Cty., 219 F.3d at
463 (alteration added). Quite the opposite.
Brioso testified City officers were required to
attend training classes “once a year or every six
months” on the use of deadly force (Trial Day 3 Tr.
221:7), and they received supervision in the use of
deadly force to the degree required by the Florida
Department of Law Enforcement (see id. 221:14–18).
Brioso also testified he read Sweetwater’s Standard
Operating Procedures and spoke to his field training
officer about it during training, although he did not
keep a copy of it with him in the field. (See id. 219:4–
20:13). The evidence of deficient training included:
(1) Gonzalez’s testimony on cross-examination he
was never given his own copy of the Standard
Operating Procedures and appeared unfamiliar with
the details of the City policy requiring verbal
notification of a supervisor and a prompt written
report to the chief of police in the event an officer
discharged a weapon (see Trial Day 4 Tr. 108:15–
13:19)7; and (2) Roques’s testimony the City lacked a
7

The Court notes this evidence was not offered during
Plaintiffs’ case-in-chief. Instead, it was elicited on crossexamination of one of the City’s witnesses while the City was
putting on its case and Plaintiffs had already rested.

42a
records department (see Trial Day 3 Tr. 137:8–21)
and its detective bureau was “basically running
amuck” (id. 134:14–16). Even with this showing, no
reasonable jury could conclude from this evidence
the officers received zero training or supervision
regarding the use of force, as was the case in Bryan
County. Moreover, the trial record is entirely bereft
of any reference to the training and supervision, or
lack thereof, of officers regarding the conduct of
high-speed chases.
The Court agrees with Perez the use of deadly
force and high-speed chases constitute conduct
where the need for training can be said to be “so
obvious” that failure to train in these areas could
properly be characterized as deliberate indifference
(Resp. 9 (citing City of Canton, 489 U.S. at 390
n.10)). Even so, Plaintiffs did not present evidence at
trial sufficient for a reasonable jury to conclude the
training and supervision of the City’s officers in that
conduct was, in fact, deficient. Accordingly, the City
cannot be liable under a theory of failure to train or
supervise. Cf. Whitaker, 126 F. Supp. 3d at 1327–28
(complaint failed to state a claim for single-incident
liability where the plaintiff failed to plead facts
showing a complete absence of training, as was
found in Bryan County, concluding “the facts alleged
simply do not plausibly give rise to the inference
that a final decisionmaker for the County made a
decision not to train the officer” (internal quotation
marks and citation omitted)); Chappell v. City of
Clanton, No. 2:17-CV-370, 2017 WL 4079721, at *7
(M.D. Ala. Sept. 14, 2017) (dismissing claim for
municipal liability premised on failure to train
where the plaintiff pled only the “legal
conclusion[]”the county “did not adequately train its

43a
police officers to employ safe, reasonable and
necessary techniques,” alleged “no actual facts
suggesting that there was an obvious but unmet
need for training,” and did “little, if anything, to tie
the constitutional deprivation alleged . . . to a
specific lack of training” (alterations added; footnote
call number, internal quotation marks, and citation
omitted)).
As Plaintiffs failed to make a reasonable
showing at trial the City was liable for Perez’s
injuries via a custom or policy or failure to train
theory, the Court cannot impute liability onto the
City for its officers’ actions. The City is therefore
entitled to judgment as a matter of law.
IV. CONCLUSION
For the foregoing reasons, it is ORDERED
AND ADJUDGED that the Motion [ECF No. 182] is
GRANTED. The Final Judgment [ECF No. 164]
entered on September 26, 2017 is SET ASIDE. Final
judgment as a matter of law is entered in favor of
Defendant, the City of Sweetwater. The City is not
liable to Plaintiffs, Juan Perez and Maria Posada, for
any damages.
DONE AND ORDERED in Miami, Florida, this 8th
day of January, 2018.
_________________________________
CECILIA M. ALTONAGA
UNITED STATES DISTRICT JUDGE

44a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-10498
JUAN L. PEREZ,
MARIA A. POSADA,
Plaintiffs-Appellants,
versus
CITY OF SWEETWATER,
RAFAEL DUARTE, et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
On Petition(s) for Rehearing and Petition(s) for
Rehearing en Banc
Before: WILLIAM PRYOR and NEWSOM, Circuit
Judges,
and
ROSENTHAL*
Chief District Judge.
PER CURIAM:
The Petition(s) for Rehearing are DENIED and no
Judge in regular active service on the Court having
_____________________________
* Honorable Lee H. Rosenthal, Chief United States District
Judge for the Southern Districtof Texas, sitting by designation.

45a
requested that the Court be polled, the Petition for
Rehearing En Banc (Rule 35, Federal Rules of
Appellate Procedure) DENIED.

UNITED STATES CIRCUIT JUDGE
Filed: July 12, 2019

